<html>
<title> - LEAD EXPOSURE IN D.C.: PREVENTION, PROTECTION, AND POTENTIAL PRESCRIPTIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





     LEAD EXPOSURE IN D.C.: PREVENTION, PROTECTION, AND POTENTIAL 
                             PRESCRIPTIONS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 15, 2010

                               __________

                           Serial No. 111-92

                               __________

Printed for the use of the Committee on Oversight and Government Reform




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
  62-945 PDF              WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         BRIAN P. BILBRAY, California
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
ELIJAH E. CUMMINGS, Maryland         ------ ------
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 15, 2010....................................     1
Statement of:
    Arias, Ileana, Ph.D., Principal Deputy Director, Centers for 
      Disease Control and Prevention; Thomas P. Jacobus, general 
      manager, Washington Aqueduct Division, U.S. Army Corps of 
      Engineers; George S. Hawkins, general manager, D.C. Water 
      and Sewer Authority; Christophe A.G. Tulou, acting 
      director, District Department of the Environment; and Ellen 
      Silbergeld, professor, Johns Hopkins Bloomberg School of 
      Public Health..............................................    12
        Arias, Ileana............................................    12
        Jacobus, Thomas P........................................    28
        Hawkins, George S........................................    34
        Tulou, Christophe A.G....................................    43
        Silbergeld, Ellen........................................    51
Letters, statements, etc., submitted for the record by:
    Arias, Ileana, Ph.D., Principal Deputy Director, Centers for 
      Disease Control and Prevention, prepared statement of......    15
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, prepared statement of.......................     7
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............    85
    Hawkins, George S., general manager, D.C. Water and Sewer 
      Authority, prepared statement of...........................    36
    Jacobus, Thomas P., general manager, Washington Aqueduct 
      Division, U.S. Army Corps of Engineers, prepared statement 
      of.........................................................    30
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     3
    Silbergeld, Ellen, professor, Johns Hopkins Bloomberg School 
      of Public Health, prepared statement of....................    53
    Tulou, Christophe A.G., acting director, District Department 
      of the Environment, prepared statement of..................    45

 
     LEAD EXPOSURE IN D.C.: PREVENTION, PROTECTION, AND POTENTIAL 
                             PRESCRIPTIONS

                              ----------                              


                         TUESDAY, JUNE 15, 2010

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:09 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Norton, Cummings, and 
Chaffetz.
    Staff present: Jill Crissman, professional staff; Aisha 
Elkheshin, clerk/legislative assistant; William Miles, staff 
director; Rohan Siddhanti, intern; Dan Zeidman, deputy clerk/
legislative assistant; Lawrence Brady, minority staff director; 
Jennifer Safavian, minority chief counsel for oversight and 
investigations; Adam Fromm, minority chief clerk and Member 
liaison; Seamus Kraft, minority director of new media and press 
secretary; Justin LoFranco, minority press assistant and clerk; 
Howard Denis, minority senior counsel; Hudson Hollister and 
Marvin Kaplan, minority counsels; Mark Marin, minority senior 
professional staff member; and Molly Boyl and James Robertson, 
minority professional staff members.
    Mr. Lynch. Good afternoon. The Subcommittee on Federal 
Workforce, Postal Service, and the District of Columbia hearing 
will now come to order. Welcome, Ranking Member Chaffetz, 
members of the subcommittee, hearing witnesses and all those in 
attendance.
    In light of the District of Columbia's ongoing efforts to 
minimize the amount of lead in its water, particularly since 
the 2000 to 2004 lead-in-the-water crisis, I have called 
today's hearing to look into how the District and the Federal 
Government can reduce the amount of lead that D.C. residents 
are exposed to and to learn what steps, if any, should be taken 
to identify children exposed to lead during the lead-in-the-
water crisis.
    The chair, the ranking member and the subcommittee members 
will each have 5 minutes to make opening statements, and all 
Members will have 3 days to submit statements for the record.
    I now yield myself 5 minutes for my opening statement.
    Ladies and gentlemen, again let me welcome you to the 
subcommittee's oversight hearing entitled, ``Lead Exposure in 
D.C.: Prevention, Protection, and Potential Prescriptions.'' 
From a health and safety perspective, today's hearing provides 
the subcommittee with an important opportunity to take a 
prospective look at issues of lead and lead exposure in D.C. 
and to discuss what the District and Federal Government can do 
to help protect the more than 600,000 District of Columbia 
residents and the millions of people that visit our Nation's 
Capital every year.
    There is an old saying that the only good lead is no lead, 
and although we may never actually meet the objective standard, 
given the various sources of lead that exist, I do believe it 
is critical that we continue to work to limit and reduce the 
level of exposure of D.C. residents, particularly of infants 
and children, particularly susceptible populations, as well as 
to fully inform the public about their options if exposure to 
lead does occur. Today's hearing is also intended to look at 
what steps, if any, should be taken to identify and assist 
those previously exposed to lead during the District's lead-in-
the-water crisis.
    As many of you are aware, from 2000 to 2004, the D.C. lead-
in-the-water crisis threatened the District's drinking water 
with an estimated 4,000 District of Columbia homes having lead 
in their water that exceeded the Federal limit of 15 parts per 
billion. While a host of work has been performed since the 
early 2000's to limit the District residents' exposure to lead, 
the seriousness of the previous crisis warrants ongoing 
oversight and examination, which is why I believe today's 
hearing is one of the most important proceedings this 
subcommittee will hold during the 111th Congress.
    It is my hope that today's hearing will examine a myriad of 
topics and questions, ranging from current practices to treat 
and deliver high-quality drinking water to residents of the 
District, to recent improvements in agency coordination and the 
dissemination of accurate and timely information to the public 
about whether or not their homes are at risk to exposure to 
lead, and to look into what actions can be taken to ensure the 
prevention of another crisis.
    I would like to thank my colleague, the Honorable 
Congresswoman Eleanor Holmes Norton, for her years of work on 
this issue. Please know that the subcommittee looks forward to 
continuing to work with you and others who are concerned about 
this problem as we collectively look for ways to prevent, 
protect and prescribe possible solutions for those who may have 
been or are exposed to lead in the District of Columbia.
    Again, I thank all of those in attendance this afternoon, 
and I look forward to hearing the testimony of our witnesses.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Lynch. I would like now to take a moment to introduce 
the ranking member, Mr. Chaffetz, for 5 minutes for his opening 
statement.
    Mr. Chaffetz. Thank you, Mr. Chairman. I stand by your 
assertion. You are correct that one of the basic tenets here, 
one of the basic things we should do is make sure that the 
water is safe for our people and for the people who are going 
to consume it from all over the world as they visit the 
District of Columbia. People expect their drinking water to be 
safe, abundant and inexpensive. Sadly, here in the Nation's 
Capital the safety of our drinking water has been an ongoing 
concern.
    Clearly there is a major Federal role in the quest for safe 
drinking water in the Washington region. Congress has done 
extensive oversight, and legislation has been enacted. Our goal 
is to basically make sure that the lead is out.
    Though not one of the leading tourist attractions in the 
Washington, DC, area, the Blue Plains Advanced Wastewater 
Treatment Plant is the largest such facility in the world. On 
the banks of the Anacostia, it is the key to having a healthy 
Potomac River and Chesapeake Bay.
    I recognize that I am still a freshman here, but I do 
understand that not too many years ago there would be pitchers 
of water with drinking glasses supplied to Members and 
witnesses at congressional hearings. I notice that today we 
have bottles of water on the table. Back then there were boil 
water alerts in Washington and signs in this very building 
cautioning people against drinking the water from the water 
fountains. Yet now, as we pointed out, we have bottled water.
    So the Water and Sewer Authority was created as a quasi-
regional entity, and as recently as 2008, Congress enacted 
legislation to preserve its independence. WASA operates Blue 
Plains. As of April 2009, WASA has a new general manager, who 
is with us today, and we appreciate you being here.
    WASA supplies wholesale wastewater treatment for over 2 
million local residents and millions of visitors and has over 
500,000 retail, commercial and Federal customers. The 
Washington Aqueduct, the Pentagon, the Reagan National Airport 
are all closely linked to WASA.
    In 2004, the WASA board hired a leading law firm, Covington 
and Burling, to investigate its management of lead-monitoring 
activities from July 2000 to January 2004 due to elevated lead 
levels in the local water supply. That investigation, 
interestingly enough, was conducted under the direction of now-
U.S. Attorney General Eric Holder.
    Some of our witnesses today testified before our 
predecessors on this subcommittee and before the full 
committee. It is shocking that a congressional investigation 
recently concluded that the Centers for Disease Control and 
Prevention made ``scientifically indefensible'' claims in 2004 
relative to the dangers some local residents were exposed to by 
drinking public water. That is something we would like to hear 
about more in this committee and hopefully here today.
    Mr. Chairman, I thank you again for calling this hearing 
and look forward to hearing from our witnesses. I appreciate 
you all being here and look forward to your testimony and the 
question and answer afterwards.
    I yield back the balance of my time.
    [The prepared statement of Hon. Jason Chaffetz follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Lynch. The chair will now recognizes the gentlelady 
from the District of Columbia, Ms. Eleanor Holmes Norton, who 
has been a driving force behind this hearing and trying to 
correct a very difficult situation.
    Ms. Norton. Thank you very much, Mr. Chairman. I 
particularly appreciate your quickly holding a hearing on this 
important public health issue.
    The hearing is, I believe, important for its national 
implications as well because of the effects of lead on children 
and pregnant women in particular. Just as the earlier lead-in-
the-water crisis from 2000 to 2004 resulted in national 
attention on the issue and the introduction of legislation in 
Congress, this hearing will take a broad-prospective look at 
lead in D.C. to learn not only about reduction of lead exposure 
in the District, but also what steps, if any, can and should be 
taken to identify and treat children and adults who were 
exposed to lead during the District's lead-in-the-water crisis.
    This crisis became public in 2004 and caused considerable 
concern in the city. At my request the Committee on Oversight 
and Government Reform held hearings on this issue, and a number 
of other congressional committees did as well. Two months ago, 
the lead-in-the-water crisis reemerged in public consciousness 
when the majority staff of the House Science and Technology 
Subcommittee on Investigations and Oversight released a 
critical investigation report making out the case that the 
Centers for Disease Control and Prevention had misrepresented 
the harm caused to D.C. residents during the lead-in-the-water 
crisis.
    This hearing is a followup to the S&I Subcommittee report, 
and I think, Mr. Chairman, it is necessary because the 
emergence once again of this issue has caused D.C. residents to 
be concerned about lead in the water, that whole crisis, and 
what are its implications for today.
    We called to the attention of residents that for the past 
several years, however, lead in the water has been below the 
U.S. Environmental Protection Agency action level of 15 parts 
per billion. However, the subcommittee report raised questions 
about whether public officials misled, intentionally or 
otherwise, and continue to mislead the public about the lead-
in-the-water crisis. These questions need clarification, and 
the CDC has indicated, too, that mistakes were made.
    But the more urgent goal of today's hearing, I believe, Mr. 
Chairman, is to look forward at what we should do about the 
children and the pregnant women who may have been exposed 
during the lead-in-the-water crisis, and what steps we can take 
to ensure that D.C. residents are safe now from lead in the 
water, lead in paint, and from other sources.
    The D.C. Water and Sewer Authority [WASA], first became 
aware of the high levels of lead in the water in 2002; however, 
it was only when the Washington Post ran a story in early 2004 
that the public became aware of the full scope of the problem. 
At that time it was estimated that 4,000 District homes had 
lead in the water that exceeded the EPA action level of 15 
parts per billion, and that the city had 23,000 homes with lead 
service lines. Fear spread through the District.
    In response to the lead-in-the-water crisis, and pursuant 
to Federal law, the District sought to replace all of the 
approximately 35,000 known utility lead service lines in the 
District of Columbia by 2016.
    At congressional hearings in 2004 and 2008, I questioned 
WASA's response to the lead-in-the-water crisis of proceeding 
with partial lead pipe replacements. There was no evidence at 
the time, and to my knowledge there is no evidence today, that 
such a measure would reduce lead in drinking water. In fact, 
CDC's own research suggests that partial lead pipe replacements 
actually may increase the amount of lead in the water. However, 
WASA spent $100 million on partial pipe replacement in the 
District.
    We are very concerned that while WASA has considerably 
reduced the number of such partial replacements, it continues 
to perform them. We need to look for new science-based 
approaches to rebuild confidence in the agencies responsible 
for preventing lead contamination.
    Most of our witnesses today are charged with the task of 
improving public health here in the District and nationally. 
The subcommittee, I am sure, will be interested to learn how 
they are meeting this charge today, particularly as it relates 
to the reduction of lead exposure here, what progress has been 
made, and, looking toward the future, what changes are needed.
    Though the focus of this hearing relates to the specific 
example of the District of Columbia, its findings, in my 
judgment, could have far-reaching consequences. The lessons 
learned from the lead-in-the-water crisis here in the District 
already have been instructive to health professionals 
elsewhere.
    Again, I thank you, Mr. Chairman, for the hearing. I think 
it is as important outside of the District as much as it is in 
the District itself.
    Mr. Lynch. I thank the gentlelady.
    It is the committee's policy that all witnesses to testify 
must be sworn, so may I please ask you to rise and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Lynch. Let the record show that all of the witnesses 
have answered in the affirmative.
    What I would like to do is begin by offering a brief 
introduction of each of our witnesses on this panel, and then 
we will invite the witnesses each to offer a brief opening 
statement as well.
    On panel one, I would like to begin by introducing Ileana 
Arias. Am I pronouncing that correct?
    Ms. Arias. You are.
    Mr. Lynch. OK. That was luck.
    Currently Ileana Arias currently serves as Deputy Director 
at the Centers for Disease Control and Prevention. In 2005, she 
was also appointed as the Director of the National Center for 
Injury Prevention and Control. Prior to joining the Centers for 
Disease Control and Prevention in 2000, she was the director of 
clinical training and a professor of clinical psychology at the 
University of Georgia.
    Mr. Thomas Jacobus has been the general manager of the 
Washington Aqueduct since 1994. He is responsible for 
overseeing one of the largest municipal water-treatment 
operations in the Nation. Prior to his arrival at Washington 
Aqueduct, Mr. Jacobus, a registered professional engineer, 
spent more than 25 years with the Army Corps of Engineers in 
military assignments around the world.
    Thank you for your service.
    Mr. George Hawkins has been the general manager of the D.C. 
Water and Sewer Authority since September 2009. In this 
position Mr. Hawkins oversees all of the D.C. Water and Sewer 
Authority's operations and is responsible for carrying out the 
strategic plan for the utility. Prior to this Mr. Hawkins 
served for 2\1/2\ years as the director of the District 
Department of the Environment, an $80 million agency with 300 
employees.
    Mr. Christophe Tulou was named acting director of the 
District Department of the Environment in May of this year. Mr. 
Tulou has over 10 years of experience in government, including 
his position as cabinet secretary for the Delaware Department 
of Natural Resources and Environmental Control. He also worked 
as an adviser on the Clinton Climate Initiative's Carbon and 
Poverty Reduction Project.
    Dr. Ellen Silbergeld is currently a professor and editor in 
chief of environmental research at the Johns Hopkins Bloomberg 
School of Public Health. She received her Ph.D. from Johns 
Hopkins in geography and environmental engineering and a 
postdoctoral fellowship in environmental health sciences. She 
has served as a scientific adviser to the Centers for Disease 
Control, Environmental Protection Agency, Department of Energy, 
Occupational Safety and Health Administration and the World 
Bank.
    Welcome.
    Ms. Arias, you are welcome to offer an opening statement 
for 5 minutes. Let me just explain that small box in front of 
you will flash green while your time is active, it will flash 
yellow when you should begin to wrap up, and then obviously it 
will show red when your time has expired. But welcome, and, 
please, you are welcome to offer your opening statement.

 STATEMENTS OF ILEANA ARIAS, Ph.D., PRINCIPAL DEPUTY DIRECTOR, 
CENTERS FOR DISEASE CONTROL AND PREVENTION; THOMAS P. JACOBUS, 
GENERAL MANAGER, WASHINGTON AQUEDUCT DIVISION, U.S. ARMY CORPS 
 OF ENGINEERS; GEORGE S. HAWKINS, GENERAL MANAGER, D.C. WATER 
 AND SEWER AUTHORITY; CHRISTOPHE A.G. TULOU, ACTING DIRECTOR, 
 DISTRICT DEPARTMENT OF THE ENVIRONMENT; AND ELLEN SILBERGELD, 
   PROFESSOR, JOHNS HOPKINS BLOOMBERG SCHOOL OF PUBLIC HEALTH

                   STATEMENT OF ILEANA ARIAS

    Ms. Arias. Thank you, Mr. Chairman, and thank you to the 
subcommittee for inviting me to testify today on what we 
consider an incredibly important issue for D.C. and for the 
country as a whole.
    I am Dr. Ileana Arias, the Principal Deputy Director of the 
Centers for Disease Control and the Agency for Toxic Substances 
and Disease Registry, as has been mentioned. In that role I am 
primarily responsible for advising the Director, Dr. Thomas 
Frieden, on all scientific and programmatic activities at CDC 
and the ATSDR.
    We are here to talk today about lead. Lead is an incredibly 
dangerous substance. It leads to, unfortunately, a number of 
neurobehavioral effects, and young children are particularly 
susceptible to the effects of exposure to lead.
    Lead exposure in the child's environment must be controlled 
and eliminated as much as possible. At CDC essentially we adopt 
a zero tolerance for lead, even though we recognize that 
removing all traces of lead in the environment may not be 
possible. However, we are committed to driving those numbers 
down as much as is feasibly possible and that we can.
    For nearly three decades CDC has spearheaded an effective 
national lead prevention campaign. When we began about 30 years 
ago, 88 percent of American children tested had blood levels 
above 10 micrograms per deciliter. Today we are testing 
children and showing that less than 1 percent have those high 
levels of lead in their system.
    The changes that have taken place in the 30 years 
essentially constitute one of the greatest public health 
success stories in the United States. CDC has worked tirelessly 
in order to accomplish this, and we haven't done it alone. We 
have partnered with other agencies who are equally committed to 
making a significant difference, such as the EPA, HUD, State 
and local health departments and others. CDC recognizes the 
potential to eliminate childhood lead exposure, and although we 
have made significant strides, we are not giving up in trying 
to make even greater differences.
    Lead is a common but dangerous substance, and exposures can 
occur in many different ways, as already has been mentioned; 
paint, dust, soil, toys. We even know now some imported 
candies, unfortunately, have traces of lead. We have been 
successful in the past in fighting it. Important pervasive 
sources of lead, like leaded gasoline, have been eliminated. 
Eliminating childhood lead exposure will require, however, 
targeting the most at-risk, and unfortunately that means the 
hardest-to-reach, populations. We need to remain vigilant for 
current sources and identify new sources of lead and make sure 
that we address those exposures appropriately.
    CDC continues to work with D.C. to protect its children 
from lead exposure. Today the D.C. Program is a very effective 
program at reducing childhood lead exposure, screening at-risk 
children, and ensuring that exposed children get effective case 
management.
    The D.C. Council has adopted and implemented a lead 
poisoning prevention law that is one of the strongest in the 
Nation. It requires universal screening of all 1- and 2-year-
olds in D.C., who are at highest risk for the negative effects 
of lead exposure. It also requires screening once prior to the 
age of 6 years and also screening of children prior to daycare 
and school enrollment.
    The D.C. lead program continues to address compliance and 
enforcement. D.C. drinking water has been in compliance with 
EPA's Safe Drinking Water Act standards for lead since 2006. 
CDC works with D.C. to reduce the number of D.C. children 
exposed to lead and to ensure that children who have been 
exposed receive appropriate case management.
    Children who test positive are enrolled in case management, 
which includes actions such as clinical followup, that includes 
medical assessment of neuro development, chelation for 
excessive levels of blood lead, referrals for childhood 
development educational service. It also includes environmental 
followup, including assessment of potential sources of lead 
exposure and enforcement of lead hazard mitigation in homes and 
in the environment of the children.
    It also involves parent and guardian education in the form 
of home visitation programs to not only educate parents and 
caregivers, but also to address the hazards, to assess and 
mitigate hazards in the home and the households where children 
and other at-risk populations live. Enriched educational 
services and intellectual development programs in the D.C. 
Public Schools also have been incredibly helpful in responding 
to children who have been exposed and characterized by high 
levels of lead in their systems.
    Moving forward, our focus must be on how best to protect 
children from lead poisoning. The CDC Director, Dr. Tom 
Friedman, and I have met with D.C. leaders already, and I am 
testifying today to underscore our intention and commitment to 
eliminate lead poisoning in children.
    In D.C., we are working very closely with the lead program. 
We are also engaging in a number of broad national activities 
to improve our knowledge of the state of affairs and our 
ability to respond very quickly to make a difference.
    Thank you.
    Mr. Lynch. Thank you.
    [The prepared statement of Ms. Arias follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Lynch. Mr. Jacobus, you are now recognized for 5 
minutes for an opening statement.

                 STATEMENT OF THOMAS P. JACOBUS

    Mr. Jacobus. Thank you.
    Mr. Chairman and members of the subcommittee, I am Tom 
Jacobus, general manager of Washington Aqueduct. Thank you for 
inviting me to testify today concerning strategies for reducing 
lead exposure via drinking water.
    Washington Aqueduct is committed to ensuring that we 
produce safe, high-quality drinking water for our customers. 
Every action we take as an organization is focused on achieving 
this. We have an exceptional record of producing and delivering 
safe, reliable and cost-effective water service for our 
customers.
    Washington Aqueduct is regulated by EPA Region 3, and even 
though we are Federal in nature, we operate like every other 
regulated water utility.
    The elevated levels of lead in drinking water in some homes 
in the District of Columbia that were reported in the media in 
January 2004 were caused by a treatment change we made in 
November 2000. That change was made to be more protective of 
chronic exposure to disinfection by-products, while at the same 
time keeping the water free from harmful bacteria. However, it 
resulted in an unforeseen change as to the corrosion control 
measures being used. As a result, the water in contact with the 
lead service lines was too reactive, and the lead was leached 
from those lines.
    A technical solution to restore affected corrosion control 
was researched and tested and then applied to the treatment 
process and delivered to the entire distribution system in 
August 2004. By adding orthophosphate as the corrosion 
inhibitor, lead levels measured at the tap in accordance with 
the Safe Drinking Water Act Lead and Copper Rule began 
dropping, as predicted. The use of a chemical additive as a 
corrosion inhibitor in the Washington Aqueduct treatment 
process will continue indefinitely.
    Lead gets into the drinking water after the water has been 
produced at the treatment plants. Nothing in the treatment 
process adds lead to the water, and the network of public water 
mains that transport the water to the homes does not add lead. 
Lead can only be introduced to the drinking water if lead 
service lines connect the residents to the water main, or if 
there is a galvanized pipe in a residence which has had a lead 
service line, if there is lead in solder joints in home 
plumbing, or if there is lead in plumbing fixtures in the 
homes.
    However, if the treatment plants have optimal corrosion 
control techniques, the possibility of lead leaching into the 
drinking water in the home can be very significantly reduced 
because the corrosion inhibitor creates a nonreactive surface 
inside the pipes and fixtures.
    To confirm analytical calculations and bench tests of 
corrosion control chemistry, Washington Aqueduct built an array 
of lead pipe loops and set it up at the water treatment plant 
to mimic home water use conditions. Looking forward, this lead 
pipe loop array will be a test bed for analysis of the effects 
of any future change to water chemistry or treatment 
techniques. We will investigate thoroughly what happens to 
corrosion control. All of this will be evaluated by our 
consultants and then by the Environmental Protection Agency 
before any future treatment change is made.
    We have followed this review procedure with the ongoing 
change in the form of the disinfectant we use. Instead of 
having chlorine gas delivered to the water treatment plants, we 
are converting to the use of an aqueous form of chlorine known 
as sodium hypochlorite.
    We are confident that through precise water chemistry 
control, our customers can maintain compliance with the Lead 
and Copper Rule. That confidence is based not only on science, 
but also only corroboration with our customers. We have the 
very best equipment for analyzing lead concentrations, and we 
share the data with our wholesale customers. We have regular 
meetings to discuss water quality, and we get excellent 
feedback.
    Even with optimum corrosion control chemistry in a system 
that is fully compliant with the Lead and Copper Rule, as long 
as there are homes with lead service lines, lead solder or 
plumbing fixtures containing lead, the water delivered to those 
homes may pick up some concentration of lead. However, by 
following the directions that the District of Columbia Water 
and Sewer Authority has communicated to its customers, everyone 
living and working in the District of Columbia can confidently 
drink the water.
    Mr. Chairman, thank you for the opportunity to offer this 
testimony. I look forward to responding to any questions you or 
other members of the subcommittee may have.
    [The prepared statement of Mr. Jacobus follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Lynch. Mr. Hawkins, you are now recognized for an 
opening statement for 5 minutes.

                 STATEMENT OF GEORGE S. HAWKINS

    Mr. Hawkins. Mr. Chairman, Congressman Chaffetz, and my 
Congressman, Congressman Norton, it is a delight to be here 
today. My name is George Hawkins.
    For 16 years you would have heard the name D.C. WASA for 
the enterprise I run. Just this morning we changed the name to 
D.C. Water. Our new logo and new phrase can be seen here on the 
shirt. It is ``Water is Life.'' I will come back to that. But 
it is not just a change in name, it is embodying a commitment 
we have to step forward and take proactive steps not only for 
the health and welfare of every customer, every citizen, every 
resident, every visitor in this city, but every living thing in 
this city, because water is the fundamental of live.
    Just to clarify and to recap, we purchase our water from 
the aqueduct. Our friend Mr. Jacobus' Federal agency, treats 
the water. We purchase the water and distribute it to every 
building in the city through 1,300 miles of pipes, 36,000 
valves, a pump system that is complicated throughout the city. 
I would love to show you. Then, once it is used and goes down 
the drain, it goes through 1,800 miles, because it includes 
sewage coming from our suburban jurisdictions to the Blue 
Plains, what I consider a water recycling plant, and we return 
over 300 million gallons of cleansed water every single day to 
the Potomac from whence it originally came.
    Now, to clarify here, previously I was the director of the 
District Department of the Environment. We are joined by 
Christophe Tulou. We are very lucky to have you. He is an 
excellent addition to service here in the District.
    While I was at the Department of the Environment--I have 
many of my prior colleagues with me, behind me--we were very 
proud to have consolidated and coordinated the lead program for 
the District. What used to take five agencies to work we 
narrowed to two. What use to be a responsive system--we waited 
until a child was poisoned by lead until we could act--now is a 
proactive system where we can go out and test and monitor and 
act in areas where we think there may be a problem before it 
happens. That has been a very positive step, and I know that 
has continued under Director Tulou's leadership at the 
Department of Environment.
    I had the great pleasure of joining what is now D.C. Water 
in December 2009. I believe that addressing the threat of lead 
in drinking water is one of our absolute top priorities. Make 
no mistake, lead in water is a public health problem, and we 
must be active in its solution.
    The issues of 2000 to 2004 severely undermined customer 
confidence in our system and our enterprise, and it is up to us 
to demonstrate that there should once again be D.C. water here 
on this table and everywhere else, because I would argue that 
it is cleaner than what we know is in this bottle. But I need 
you to believe that more than I need me to believe that. The 
recent investigation and studies about CDC suggest that these 
problems still linger.
    Most important to us is that lead in water and lead as a 
threat is preventable. This is a problem we can solve, and this 
enterprise that I have joined and am pleasure to be part of is 
committed.
    What about our responses? Initially in 2002, it has been 
mentioned about the partial lead service replacement. That was 
not an optional program. That was a required action by the U.S. 
Environmental Protection Agency under the Lead and Copper Rule. 
We were required to replace 7 percent of the public service 
lines in any given year.
    The question has always been partial service line 
replacements. As information has come forward, we have 
determined, really all of us, that partial lead service line 
replacement does not only not drop lead in the system in the 
long term, in the short term can actually cause a spike in lead 
in the water, in fact, because when the lead lines are 
replaced, there is a lot of agitation to the pipes themselves 
which can dislodge lead into the system and cause a surge.
    So as lead in the water, in fact, was reduced because of 
the change to orthophosphate in 2004, it became clear that we 
were no longer required to do partial lead service line 
replacements. So we have eliminated that program. Where we were 
doing more than several thousand partial lead service line 
replacements in a year, they are still done in the several 
hundreds in a year. But I want to emphasize, there are no lead 
service lines that are replaced for that reason on the partial 
basis.
    When a water main is replaced in the street, the lines that 
come from our customers are no longer the right length because 
the water main is not put in exactly the same place. Some will 
be too long; others will be too short. So we have replaced 
those lines not because they are lead, they just don't fit the 
system. So we have put new lines in.
    In some cases if the older line was a lead line, that has 
the effect of being a partial lead service line replacement. 
That is not why it is done. However, in those situations we 
communicate with that customer 6 months in advance, we provide 
ample information we believe about what risk there is involved, 
we offer to do a full lead line replacement, and will offer 
funding to lower-income residents. We will provide free 
certified-for-lead-removal water filters for those customers 
for at least 6 months or until the lead numbers have gone down 
below the 15 part action level.
    So we have changed our response and are being very 
proactive in our protections for our customers.
    Thanks so much.
    Mr. Lynch. Thank you.
    [The prepared statement of Mr. Hawkins follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Lynch. Mr. Tulou, you are now recognized for 5 minutes 
for an opening statement.

               STATEMENT OF CHRISTOPHE A.G. TULOU

    Mr. Tulou. Thank you Mr. Chairman, Ranking Member Chaffetz, 
and my Congresswoman Ms. Norton. Thank you very much for this 
opportunity to testify before you today. My name is Christophe 
Tulou. I am the acting director of the District Department of 
the Environment [DDOE].
    Lead is among our most nefarious environmental toxins. It 
steals our most valued treasure, our children's potential. 
Because of that, there is no safe level of lead in children's 
blood, and I can assure that you getting lead out of their 
bodies and their environment is a top priority for Mayor Adrian 
Fenty and for DDOE.
    I would like to take a moment to reflect back on the period 
2000 to 2003 and D.C.'s lead-in-the-water crisis. As you know, 
the House Science Subcommittee recently completed a report that 
questioned the discrepancy between the number of blood lead 
screenings in 2003 and the numbers in the adjacent years.
    Prior to that report, DDOE undertook its own rigorous 
review of the data to determine the extent to which children 
with elevated blood levels might have slipped through the 
cracks. I am pleased to say that we did receive those screening 
reports and, most importantly, determined that the overwhelming 
majority of children with elevated blood levels did indeed 
receive District services.
    Originally we determined that 10 children had blood levels 
above 15 micrograms per deciliter who may not have been 
tracked, but after further analysis we found that 5 had either 
received the service, did not need the service because their 
blood levels indeed were not elevated, or actually their levels 
had been recorded in our lead track data base.
    Nonetheless, we inspected all 10 properties involved, 
notified owners that failed inspection, and we have given those 
folks 30 days to correct the violations.
    Much has happened since 2003. Most importantly, in 2008, 
Mayor Fenty signed into law a Nation-leading measure that makes 
prevention of lead poisoning a front-burner District policy, 
building on our efforts to respond effectively to high lead 
levels when we find them.
    The District's new lead law, which has been implemented for 
just over a year now, creates vigorous new enforcement programs 
that, among other things, makes chipping and peeling paint in a 
pre-1978 home a presumptive lead hazard enforceable by DDOE, 
thus shifting the burden to the landlord to prove that 
deteriorating conditions are safe.
    The law consolidates lead enforcement in one agency, that 
is DDOE, allowing quick action when a hazard is identified, and 
it requires landlords to test their property for lead hazards 
and document the property is cleared before renting that 
property to a tenant who is pregnant or who has children under 
the age of 6.
    DDOE is also expanding its complaint response for reports 
of unsafe work practices and property conditions. It is 
minimizing data problems by requiring testing labs to submit 
their results, but also to a separate read-only back-up server. 
By comparing data in these two places, we will provide improved 
data integrity.
    We are also joining two other jurisdictions around the 
country----
    Mr. Lynch. Mr. Tulou, I am not sure what happened to your 
audio there. We are losing you.
    Mr. Tulou. I am back in service.
    We are also joining two other jurisdictions around the 
country to include water testing as part of its followup 
investigation of a poisoned child's home, allowing inspectors 
to advise parents on ways to reduce risk from lead in the water 
supply.
    We are also reaching out to families with children whose 
blood levels are below the usual action level of 10 micrograms 
per deciliter, and in this case between 5 and 9, to teach them 
how to reduce home lead levels.
    We are targeting proactively the highest-risk areas around 
the city for enforcement. So, for example, if a child with an 
elevated blood level lives in a multifamily property, the 
owner-manager of that property is contacted to ensure lead-
based compliance for all their units.
    We are collaborating with local Medicaid officials on data 
sharing to ensure that Medicaid children are screened for lead 
poisoning on time, a strategy that has lead to double-digit 
jumps in screening rates in other jurisdictions.
    We are participating in monthly meetings with community 
members and multiple District agencies to find and implement 
better ways to prevent lead poisoning.
    Finally, the agency is strengthening its relationship with 
the District's Office of Attorney General, resulting in greater 
focus on and stronger actions against those who violate the 
law.
    In closing, the District's leadership on lead issues is 
truly a community effort, ranging from concerned parents to 
knowledgeable and passionate advocates, and enlightened city 
council members, and an engaged and forceful Mayor, and, of 
course, a team of expert and committed DDOE staff, several of 
whom are with me today, for whom this is not only a mission, 
but also their life's work.
    Thank you again for this opportunity. I will be glad to 
answer any questions you may have.
    Mr. Lynch. Thank you.
    [The prepared statement of Mr. Tulou follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Lynch. Dr. Silbergeld, you are now welcome to make an 
opening statement for 5 minutes.

                 STATEMENT OF ELLEN SILBERGELD

    Ms. Silbergeld. Thank you very much. Thank you for giving 
me the opportunity to provide testimony on this topic and on 
the broader context in which this topic arises. As has been 
noted, I am professor of environmental health sciences, 
environmental health engineering and epidemiology at the Johns 
Hopkins Bloomberg School of Public Health in Baltimore, but I 
am appearing as a private citizen.
    I want to cover three specific topics: our current 
understanding of health hazards of lead to young children and 
others; the contribution of lead in drinking water to exposures 
and toxicity; and the importance of interventions after 
exposure to mitigate toxicity to children.
    As you know, there is extensive scientific consensus now 
that lead is associated with significant risks to health at 
blood levels well below the guidance level set by CDC in 1991, 
some 20 years ago.
    For adults there are also significant health impacts of 
exposures below 10. And I want to stress this, that it is very 
important to extend our public health purview to adults in 
light of the serious health effects of lead exposure that occur 
after childhood. For children we know that these exposures are 
associated with problems in neuro development in children, but 
in adults they are associated with increased risks of 
cardiovascular disease, including increased risks of death due 
to stroke at the same levels. We also recognize that lead-
induced impairments in neuro-development in children that are 
measured early in life are followed by highly significant risks 
expressed in adolescents and young adults, which speaks of the 
importance of intervention.
    In terms of drinking water, lead exemplifies the importance 
of cumulative risk; that is, the importance of considering all 
exposures in evaluating the significance of any specific 
exposure. In fact, as our understanding of lead toxicity 
increases, we really are impelled to reevaluate guidelines and 
standards for all media and all potential sources of lead. For 
example, it has been calculated that a child drinking 2 liters 
of water per day at the current action level of 15 parts per 
billion would exceed a blood lead level of 5 micrograms per 
deciliter within a year under conditions of frequent 
consumption.
    Moreover, if we accept the conclusions of research on the 
toxicity of lead and reset our guidance to 5 micrograms per 
deciliter or lower, we can no longer assume that housing is the 
main source of elevated lead exposures, and the risk metric 
that has been developed by CDC and by a committee that I was 
part of is no longer reliable for preventing lead exposure or 
even prioritizing preventative actions.
    As you may know, EPA is currently recognizing the 
importance of reconsidering many standards and guidance related 
to environmental concentrations of lead, most recently with the 
National Ambient Air Quality Standards for lead in air. I was a 
member of the SAB panel for EPA that reviewed the scientific 
justification for the current drinking water standards. The 
enforceable standard was set at 15 parts per billion, but it is 
my scientific opinion that given what we know now, this current 
standard is not acceptable, nor is the current strategy for 
intermittent sampling and most certainly the recommendations to 
consumers that flushing the waterline will prevent exposure to 
drinking water lead an acceptable way to prevent exposure.
    Now, on the last point, in terms of interventions, 
lamentably many children in the United States, particularly, 
but not only, in our Nation's Capital, as well as in other 
major cities, including my own, continue to be exposed to lead. 
Thus, we cannot ignore the importance of considering 
interventions that can mitigate the short- and long-term 
impacts of these unprevented exposures.
    Clinical and experimental researchers have examined the 
efficacy of educational and behavioral interventions for 
children, expressing the characteristic impairments of lead 
toxicity, including neurocognitive delays, impulsivity, 
attention deficit disorder and heightened aggressiveness. Some 
of this research has been conducted by my colleagues at 
Hopkins, such as the Kennedy Krieger School. In fact, this is 
an approach that has been adopted by parents and in school 
systems, and, in fact, is one of the focal points of the CDC 
lead poisoning program; that is, the delivery of interventions 
to children with elevated lead exposures. And I am a member of 
the advisory committee for the CDC that considers this topic.
    This is a very important response, and if we fail to meet 
the needs of lead-exposed children, this will increase the 
risks of school failure, learning disabilities and sociopathic 
behaviors in the next generation of young adults.
    Thank you for your attention. I am ready to answer any 
questions that I can.
    Mr. Lynch. Thank you, Doctor.
    [The prepared statement of Ms. Silbergeld follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Lynch. I now yield myself 5 minutes for a first round 
of questioning.
    Ms. Arias, thank you very much for your willingness. I know 
you had to pinch hit at the last minute when your Director Dr. 
Frieden was out of the country, and I appreciate your testimony 
here today.
    To begin, you mentioned in your testimony that as a result 
of the lessons learned during the 2000 to 2004 lead-in-the-
water crisis, that the Center for Disease Control instituted an 
automated surveillance reporting system and required that all 
data be reported directly to CDC.
    I must confess I was not in place at that time, and I am 
curious to know how much of a change that presented to what was 
going on previously, and how is that working today? And can you 
point to any enhancements or changes that might bring 
improvement to that whole system?
    Ms. Arias. Thank you very much for that question.
    The system is not fully implemented yet. We are expecting 
that by the end of December of this year, we will have 15 
programs who are submitting their information on a very timely 
basis directly to CDC. And by ``timely'' I mean quarterly 
reports as opposed to reports on an annual basis, and maybe 
even longer than that, that unfortunately in the past had the 
potential, as it did in D.C., leading to a lag between what was 
going on in a jurisdiction and our knowledge of it to be able 
to intervene.
    In addition to the fact that the information is coming in 
directly to CDC and more quickly, it is also coming in in raw 
form, so we are actually doing the analyses as opposed to 
having the local programs do the analysis of the data and then 
submit those summary results to us. What that means is that we 
again will have the raw numbers more quickly and available to 
detect any significant changes in a jurisdiction that may 
require a significant response.
    Mr. Lynch. Let me ask you, what data are you actually 
collecting?
    Mr. Arias. Well, we are collecting the results of testing 
of the water and then the blood levels in children that are 
being tested primarily. So what we are interested in tracking 
is are there any changes that are being reported or that are 
being detected in blood levels of kids who are being tested in 
those areas.
    Mr. Lynch. And let me ask you further, the level--there has 
been a number of witnesses on the panel as well that have 
talked about the standard, how many parts per billion, and 
there is some direct testimony that the old standard should be 
revised to recognize a greater danger, and that the old 
standard--is it 15 parts per billion?
    Ms. Arias. In the water, 15 parts per billion, yes.
    Mr. Lynch. I think Dr. Silbergeld testified that was 
unacceptable, if I can quote you. Are we still testing at that 
15-parts-per-billion level, which was, I think, instituted back 
in the 1990's?
    Ms. Arias. We are testing at that level. There are two 
levels that are of particular concern to the CDC. One is the 
level in the water, and then the other is the blood level as 
well, so the 10 micrograms per deciliter. One of the things 
that we are going to be--and Dr. Frieden has already charged 
the leadership of the National Center for Environment Health in 
ATSTR to work with the advisory committee on lead to revisit 
both of those levels.
    In the case of the 15 per billion, it is a recommendation 
that we would make to EPA and others, and then they would have 
to essentially take that information and make the final 
recommendation of what it is, what the standard ought to be.
    In the case of the sort of level of concern of blood 
levels, we are again sort of going to work with the advisory 
committee to determine, No. 1, what is the best language to use 
so that we do not confuse people and misrepresent or lead to 
confusion about the fact that no level of lead is safe. So we 
are working on both of those.
    Mr. Lynch. Given the timing of this, we are talking about 
the crisis that was identified as 2000 to 2004, I also 
understand that you are only testing children until age 6. At 
least that is what I read. If that is not the fact, you can 
educate me on that.
    Given the nature of the problem here in D.C. and the long 
time period, and we are still not getting full compliance with 
the reporting requirements, wouldn't it be helpful to continue 
the testing beyond age 6 to catch maybe some children beyond 
that age that might have been exposed earlier?
    Ms. Arias. The recommendations speak to those ages because 
they are at highest risk for the negative health consequences 
of exposure to lead. However, CDC would be supportive of 
testing all kids to make sure that all kids are equally 
protected from exposure to lead, and not just those who are at 
highest risk, along with pregnant women and women who may be 
breast feeding because of the infant issues.
    Mr. Lynch. Thank you. I notice my time has expired.
    I now recognize the gentleman from Utah Mr. Chaffetz for 5 
minutes.
    Mr. Chaffetz. Thank you, and thank you all for being here.
    Ms. Arias, are you familiar with this report by the 
majority staff of the Subcommittee on Investigations and 
Oversight of the Committee on Science and Technology, 
subcommittee chairman Brad Miller?
    Ms. Arias. Yes, I am.
    Mr. Chaffetz. Dated May 20, 2010. This is such a damning 
report. It is pretty shocking, the accusations that they throw 
around in here at how inept the CDC was. What is your response 
to this report?
    Ms. Arias. As followup to today, we can provide you a more 
detailed sort of account and side-by-side of what was in the 
report and then the actions that we took either prior or in 
response to the criticisms that have been raised to improve our 
work.
    One of the things--in general, I think it is the case that 
we regret the fact that we did not become knowledgeable of the 
situation in D.C. any earlier than we did. However, what we 
have been very clear about is how we are still confident of the 
response that we did when we did become aware of the issue, 
that it was an appropriate response, it was an adequate 
response, and it was a response that maximized the safety of 
children and all others in the home at that time.
    Mr. Chaffetz. I am sorry, my time is so short, I have to 
move from subject to subject here.
    This is page 2. ``The CDC cannot produce the raw data used 
in the cross-sectional study. Both CDC and the District 
Government claim they have no records containing the raw 
scientific data to substantiate the basis for this study.''
    Ms. Arias. The cross-sectional study was not a CDC study; 
the longitudinal one was. Both studies were presented in the 
same dispatch, in the MMWR. So we never had the data for the 
cross-sectional study. We have tried to get those in order to 
look at the analyses that were done and compare and see if they 
were accurate, but we do not have that.
    Mr. Chaffetz. ``The subcommittee's investigation has found 
that the number of D.C. children with elevated blood levels in 
2002 and 2003 was at least three times greater than the CDC 
claimed in 2004.'' Is that accurate?
    Ms. Arias. That is on the basis of cross-sectional data.
    Mr. Chaffetz. ``The CDC failed to provide reliable public 
health guidance when it published the emergency dispatch based 
on known, missing data.
    Ms. Arias. I will have to provide you with followup 
information, because there are a number of different 
discrepancies that have been alluded to or that have been 
pointed out in that report, and so I will have to look into the 
exact one that you are referring to and get you that 
information in followup.
    Mr. Chaffetz. Part of it, it says later on page 8, ``There 
was a mysterious drop of almost 6,000 in the number of children 
tested in 2003 compared to the year 2000.''
    Ms. Arias. In the longitudinal study that CDC did conduct, 
we did find that there were a number of cases that were 
missing. We have since collected that information and done the 
reanalyses to be able to provide more accurate information. All 
of that information has been then corrected in the MMWR and all 
the materials that CDC makes available to the public and other 
professionals.
    Mr. Chaffetz. In the conclusion of this report, ``It is 
inexplicable that the CDC, the Nation's premier public health 
agency, promoted as credible a report that countered every 
single piece of research that outside scientists, the agency 
and its own advisory committee had previously issued on dangers 
of elevated lead levels,'' and it continues on.
    It can't get any more aggressive in saying how bogus this 
is. I guess we don't have time to go through the details of 
this, but this certainly warrants a very thorough explanation 
and a side-by-side analysis. If you are willing to provide 
that, we would appreciate it. The contrast in what you are 
saying and what this report says is huge. This is not like one 
little minor difference here. It basically says the whole 
report is something we shouldn't believe in.
    Mr. Arias. We will provide that to you.
    Mr. Chaffetz. Thank you. I appreciate that.
    Mr. Hawkins, welcome. I like the new logo. I will get one 
of those patches for my suit, I guess.
    Mr. Hawkins. Say the word.
    Mr. Chaffetz. There you go.
    Mr. Hawkins. You said it.
    Mr. Chaffetz. I will call you. I will call you, yes.
    Let me ask you here, there was an analysis done where there 
were 20 different recommendations. Can you give me a sense of 
how thorough these recommendations have been implemented? This 
was back from the report from Eric Holder. This is a summary of 
the investigation reported to the board of directors of the 
District of Columbia Water and Sewer Authority, July 16, 2004. 
There were 20 recommendations. Have they been implemented, not 
implemented?
    Mr. Hawkins. I will have to get back to you about that 
specifically, because we can answer 1 through 20, exactly what 
we have done on each.
    In short, the Water and Sewer Authority--which, by the way, 
the legal name has not changed, so that is still the name. This 
is just as D.C. Water, as we are doing our part----
    Mr. Chaffetz. I can appreciate that, yes.
    Mr. Hawkins [continuing]. Has adopted a very aggressive 
strategy across the board. So the partial lead service line 
replacements, as I mentioned, was a required step. We, in fact, 
are doing advanced monitoring. Any one of our customers that is 
concerned about lead in the water can ask for a testing kit, 
which we will send them. We will analyze the result. If there 
are results that indicate----
    Mr. Chaffetz. Can you send me one of those?
    Mr. Hawkins. We will send you one of those as well.
    Mr. Chaffetz. I would love to see the water that is coming 
out of the sink in my office, what that looks like.
    Mr. Hawkins. OK. We would be delighted. And if there is an 
issue, we will also advise you on what steps to take in 
response.
    Mr. Chaffetz. Believe me, I will call you.
    Mr. Hawkins. From soup to nuts. The monitoring we do, in 
fact, because we have been under the action level of 15 parts 
per billion, we could seek from EPA to reduce the level of 
monitoring we are required to do. We have not done that. We 
think the expanded level of monitoring that you put in place 
when there is a problem is warranted to continue, because we 
want to make sure we can demonstrate to our customers that 
which we believe is true but want to make sure the numbers 
demonstrate.
    You can see the water monitoring that we do on our Web 
site, so we release the monitoring that is done. We are working 
with advocates to look at all of our materials and 
communications to make sure that which we are describing to the 
customer is true or is as carefully worded as possible.
    As I mentioned, in partial lead service line replacements, 
if we believe there is an issue in your home, we will provide 
you with the certified lead removal filters for your home for 
at least 6 months or until we are both convinced that the 
numbers have gone below the action levels.
    We work with the aqueduct to make sure that from the 
distribution system, on research, this is board-initiated as 
well with the support of the enterprise. Last year, at the end 
of last year, we did our own research that revealed a 
connection between lead in water and galvanized pipes. That is 
something we did on our own, we released to the public and are 
taking steps.
    So one for one on the Holder report, we can absolutely go 
one for one. But the story is--this is a serious question. 
There is more research to be done to know what the level is, 
the right number. In our view, the statement the chair said 
from the beginning, the only good lead is no lead, and the 
question is how can it be done in a cost-effective, thoughtful 
manner? It is a public health threat, and we want to be 
proactive in our response.
    Mr. Chaffetz. Thank you. I appreciate it.
    Thank you, Madam Chair. I yield back.
    Ms. Norton [presiding]. Thank you.
    For reasons that are perfectly obvious, I am taking the 
chair, pending the full vote for the residents of the District 
of Columbia. It will come.
    Dr. Arias, just to clear up, before we get to prevention, 
it is my understanding that the position of the CDC is the 
public misinterpreted the 2004 mobility weekly findings. Now, 
if there was a misunderstanding, what steps has CDC taken to 
clear up this misunderstanding?
    Ms. Arias. There are two sets of steps that have been 
taken. One is to address the information provided in that 
document and how it is that then that information can be used, 
or how we are encouraging that it be used.
    And the other is what we're doing to rectify processes that 
led to those difficulties. On the first hand, what we have done 
is, again, identified the information that was not available to 
us at that time, have gotten that information and redone the 
analysis to make sure that the most accurate information is 
available. As a result of that, then we have made all the 
corrections and have put special notices on all the documents 
in the MMWR and on our Internet pages that refer to the 
original 2004 article and so have the corrected information 
there.
    We also then contacted all the lead programs in the country 
with the updated information to make sure that they understood 
what the correct information was.
    In terms of processes, again, what we're doing is improving 
those surveillance systems so that we do not find ourselves in 
a situation again where we find out about potential or actual 
increases in either water levels or blood levels of lead from 
the media or accidentally, after a long period of time of 
exposure. So that we're making sure that we are aggressive both 
in collecting the information and then having the program work 
with the programs and the State and locals to make sure that 
the information is being submitted and that we then analyze it 
in a timely basis and act appropriately.
    Ms. Norton. Mr. Hawkins, I have a question for you in light 
of Dr. Arias' testimony.
    First, I note that you eliminate the word ``sewer'' from 
your title. You're marketing your agency a little differently, 
I guess. I can understand that, although I think it could 
create some confusion with Mr. Jacobus' work. And some of us 
consider your work on sewers to be of exquisite importance.
    So I know sewer can sound like a dirty word, but the fact 
is that it is that part of your jurisdiction that some of us up 
here, especially me, because I am the prime sponsor of the 
Anacostia River bill, the comprehensive bill, the first that 
the Congress has ever passed to clean up the river, there are 
some of us who like the notion of calling attention to the 
sewers, particularly considering their effect on the Anacostia 
River and ultimately on water. But, you know, I just want you 
to know that some of us aren't fooled by your eliminating sewer 
from your title.
    I'd like to know when CDC first informed you or, for that 
matter, Mr. Tulou, of the new findings that children in the 
homes with partial lead line replacements had four times the 
likelihood of elevated blood test levels. When did that occur?
    Mr. Hawkins. My recollection--I'll have to check, so I can 
go get a more specific answer--was 2009. But I can confirm 
that.
    Ms. Norton. Yes, Mr. Tulou.
    Mr. Tulou. And we're not aware of exactly what that time is 
either.
    Ms. Norton. Well, we have--that's the date that's been 
given to us.
    And, Ms. Arias, I have to ask you what took CDC so long. 
You knew before September 2009, about this misinformation, 
shall we call it. Why wasn't the District notified immediately?
    Ms. Arias. On the partial line replacement issue?
    Ms. Norton. On lead in the water in 2004.
    Ms. Arias. CDC was informed of the problem in 2004 by EPA. 
As soon as we were informed----
    Ms. Norton. Well, why did the District only learn about 
this matter in 2009?
    Ms. Arias. I'm sorry.
    Ms. Norton. I'm talking about partial line replacements.
    Ms. Arias. The line replacements.
    Ms. Norton. Yeah--were four times as likely than children 
in homes with lead service lines, so that Mr. Hawkins would 
know that.
    Ms. Arias. We did not have that information until much 
later, and it was information that--or data through 2006. So it 
was in 2007 when we did the initial analysis, and then we were 
waiting----
    Ms. Norton. You mean CDC only recently had the view that 
partial line replacements can, in fact, increase exposure to 
lead? You didn't know that before 2009?
    Ms. Arias. No, that was a longitudinal study that we did 
after the MMWR.
    Ms. Norton. When did you do that study? I remember that in 
the early 2000's there was testimony in this committee 
precisely of that matter, that even while WASA was proceeding, 
there was no explanation given as to why that would help and 
why that might not indeed exacerbate the situation. And you 
were unfamiliar with the fact that partial replacement might, 
indeed, exacerbate lead in the water?
    Ms. Arias. I can send you, as a followup, a full detailed 
chronology of when it is that information became available.
    Ms. Norton. Has CDC informed jurisdictions around the 
country about the possible effects of partial line replacement?
    Ms. Arias. Yes, we have.
    Ms. Norton. When did you do that?
    Ms. Arias. I can get that information to you.
    Again, there was an initial communication, and then there's 
been a more recent one. I think the first one was in 2009. And 
then more recently we have reached out and again and again 
posted information on our Web and sent out letters to our lead 
programs informing them of the findings.
    Ms. Norton. Let me ask you, Ms. Silbergeld, and you, Ms. 
Arias, is there anything that can be done now that these 
households have knowledge that they may have been exposed? Is 
there anything that can be done that can remedy the situation 
as far as they're concerned?
    Ms. Arias. What we are recommending in D.C. specifically is 
making sure that children--No. 1, that the water is tested and 
making sure that it's in compliance with the Lead and Copper 
Rule.
    Ms. Norton. I want to know--we know the preventative work 
is very important, and maybe this is all a case of prevention. 
I want to know, if I was pregnant--2 months pregnant in 2002 
and I now have that child, what is it that I should do?
    Ms. Arias. Contacting a medical professional and getting 
testing, No. 1, not only to look at current lead levels in the 
blood but then also looking at any potential developmental 
problems associated with lead that may be present either in 
that child or in that adult woman herself.
    Ms. Norton. Suppose lead is found? Then what? What can do 
you to get the lead out? Can you?
    Ms. Arias. Then some case management, depending on the 
level, that would determine the response of exactly what would 
be done. But it certainly then would be case management and 
then continuing to do a very careful assessment of the home and 
removing all possible sources of lead.
    Ms. Norton. Ms. Silbergeld, are these parents and children 
just out of luck or is there something you know of that could 
be done after the fact for such families?
    Ms. Silbergeld. Well, in my testimony I reviewed this in 
somewhat more detail than I did in speaking. But very briefly, 
to summarize, I think that it is the opinion of professionals 
in education, child psychiatry, etc., who have been dealing 
with this problem of children who were exposed to lead, in 
fact, for most of these children you can't get the lead out of 
the body. NIH sponsored a large clinical trial, of which 
Hopkins was a participant, to see whether pharmacologic 
treatment at lower levels of lead would, in fact, do anything 
to reduce lead in the blood and to improve the status of the 
child. The answer was no. So what we're looking at now are 
interventions that are targeted at what we know to be the at-
risk outcomes for children with early lead exposure.
    And there have been schools and researchers, including the 
Kennedy Krieger school in Baltimore, which is affiliated with 
Johns Hopkins, which have developed specific curricula which 
speak to the particular behavioral and cognitive problems that 
have been widely described in children with these exposures.
    So I would support Dr. Arias' statement of having a very 
early assessment, as early as possible. Because we know, in 
general, for developmental disabilities that the earlier that 
an accurate diagnosis is made and a program is developed that 
fits the needs of the child, the more likely we are to mitigate 
and potentially remediate the effects of those earlier 
exposures. So I think that is an issue of very high priority; 
and, in fact, it is a focus of the lead poisoning prevention 
program at CDC.
    Ms. Norton. Well, I know Mr. Tulou can perhaps answer this. 
There is some kind of targeting focus on homes presumed to 
perhaps be more vulnerable, have children more vulnerable to 
lead. I'd like to know how those homes are selected.
    For example, my family and I have lived in a--what we on 
Capitol Hill call a historic house. You can't do certain things 
to these houses because it was built so long ago. Why wouldn't 
the targeting simply be every child under a certain age, 
whatever you choose, in the District of Columbia? And if it is 
not that, how do you decide which children should be tested?
    Mr. Tulou. Well, actually, the requirement is that every 
child under the age of two must be blood tested.
    Ms. Norton. So that means that today, if you--whether you 
go to a private physician or deliver as a Medicaid patient, you 
get those results, 100 percent results.
    Ms. Silbergeld is shaking her head. You say that you don't.
    Ms. Silbergeld. Well, unfortunately not. That has been the 
recommendation of the American Academy of Pediatrics, by the 
CDC and others, that we should have universal screening. 
Because, as you rightly say, there's kind of a diffuse picture 
of risk. And living in an old house such as yours--and I, too, 
had children in an old house in Baltimore. I can tell you that 
there's lead paint present and that in any house that has lead 
paint present there are higher levels of lead and dust than in 
a house that does not have lead paint present, no matter how 
well maintained it is. Those are studies that we have actually 
published.
    Ms. Norton. Are you saying that the Federal law does not 
require universal testing?
    Ms. Silbergeld. The Federal law has been softened so that 
priority is given to Medicaid children and to other children 
receiving services. And, as I mentioned in my testimony, there 
has been a risk assessment which was well designed by CDC in 
1991 which focused really on priority to prevent exposure to 
lead-based paint. And so then----
    Ms. Norton. All right. Lead from any place it would detect, 
though, from any source.
    Ms. Silbergeld. Well, but what happened was the children 
that received the priority for screening were, I think as Mr. 
Tulou mentioned, primarily based on the assumption that the 
major source of risk to produce a blood lead in excess of 10 or 
even 15, which is the action level in many cities, that was 
more often than not associated with the presence of lead-based 
paint.
    However, if we become--as I suggested, if we become 
concerned, as I think we should, about levels down to the level 
of five, then that metric and that risk assessment is no longer 
fully predictive; and at that point lead in drinking water, 
lead in other sources, perhaps, as well become major 
contributors to the blood lead elevation. And this is going to 
be something that I'm sure that Dr. Arias, Dr. Frieden, and 
others are going to have to take into account as they develop 
new guidance and new recommendations.
    Ms. Norton. And I understand they're doing that. They're 
developing new guidance.
    I don't understand the screening notion. I can understand 
the Medicaid for those who get their health services through 
the public. But I don't understand, since we learned during the 
health care crisis--sorry, the health care bill debate, that 
most people have health insurance. I don't understand why you 
wouldn't simply say, just like every child has to be 
vaccinated, every child has to be tested. Let us say a child 
below two has to be tested.
    Ms. Silbergeld. That has been said under EPSDT and other 
programs, but it has not been enforced as a universal 
requirement, to the best of my knowledge.
    Ms. Norton. Dr. Arias, why in the world doesn't CDC simply 
mandate or recommend or whatever you do that every child in the 
United States, whether seen by a private physician or through 
some other source, be tested for lead? If--particularly if, as 
I've heard it, prevention is the only cure here.
    Ms. Arias. Sure. We don't have the authority to do that. 
What we do, however, is make sure that we educate medical 
professionals to make sure that they do engage in testing 
parents, etc.
    Ms. Norton. OK. I get sick of CDC. Every time you ask them 
something, they tell you, well, they can't mandate something. I 
understand that. We've been with CDC through a lot of things in 
this town, I must tell you. Does CDC make recommendations to 
public health authorities as to what should be done? I'm just 
trying to get a straight answer.
    Ms. Arias. Yes, we do; and we do recommend universal 
testing for children up to the age of two.
    Ms. Norton. This is, it seems to me, very, very important. 
This notion of universality is very important. I don't know 
whether you keep record of it, how often you do it. When's the 
last time you made such a recommendation and looked to see 
whether or not people were doing that? Dr. Arias.
    Ms. Arias. We work with the lead programs to make sure that 
they are aware and that they are aware of our recommendations 
and work with their coalitions to make sure that then those 
recommendations get adopted in those local jurisdictions.
    Ms. Norton. I have to tell you, I'm very concerned. Because 
I needed to hear, and I have heard, let no lead in the water 
now, at least if we use your standard, and I can understand 
you're working on that standard. But if you were pregnant or if 
you were a young child, the most we can tell you is to get 
tested. That means that a very heavy, a very heavy burden is on 
the CDC not only to make a recommendation once in a blue moon 
but to check to see if this is being done. And so I would urge 
in your protocols that you are preparing that something other 
than a recommendation that may be made a moment in time occur.
    Yes, Ms. Silbergeld.
    Ms. Silbergeld. Out of respect for my good colleagues at 
CDC, who I think have been heroic in these recommendations over 
the past 20 years, I think there would be room for some 
investigation and oversight of the private insurance sector and 
some of the State health programs that are not funding this.
    Ms. Norton. And who would you suggest do that oversight? Do 
you think CDC has any role in that?
    Ms. Silbergeld. No, I think that's something that has to 
come from the Congress.
    Ms. Norton. The Congress can have hearings.
    Ms. Silbergeld. That's what I mean.
    Ms. Norton. But if, in fact, CDC says there should be 
universal testing, well, surely CDC doesn't say something that 
it then can't ask the jurisdictions to give them some 
information back up on.
    Ms. Silbergeld. Well, they do; and they do collect data on 
prevalence of testing. I know my State reports on this, and I 
think again that the results are very discouraging. But just as 
CDC----
    Ms. Norton. Ms. Arias, do you publish these results? Dr. 
Silbergeld says that in fact they do give their results to CDC.
    Ms. Arias. Yes. For example, we know that in D.C. only 45 
percent of 1- and 2-year-olds have been tested.
    Ms. Norton. How often do you publish these results?
    Ms. Arias. I have to see what reports we actually do send 
out. I want to make sure that we're accurate in that.
    Ms. Norton. I wish you'd, within 30 days, tell us how 
often.
    It does seem to us, particularly since, of course, CDC is 
not an enforcement agency, it would be important, it seems to 
me, to make jurisdictions know they're on the list by knowing, 
for example, that annually these results will be posted. You 
now have an increasingly aware population, and once they see 
they're not on list of people I think they will do our homework 
for us.
    I wanted to make sure I understand Mr. Hawkins and the 
partial line replacement. This is something that has bothered 
me for some time. You gave a very intelligent and rational 
explanation.
    I didn't understand, though, are you saying that the public 
portion of the pipe is in any case exposed so you've got to 
replace it when you are doing other work underground? Is that 
why you've just got to do it?
    Mr. Hawkins. Right. That essentially is true. When we're 
replacing a water main in the street, the new main is very 
rarely put in exactly the same place that the old main was 
located. So if you think of the street and the main being 2 
feet to the left of where the previous main had been, that 
means all the lines coming from either side of the street are 
no longer the right length to connect into the main because 
it's too close on one side and farther away on the other. So we 
have to replace those public lines just to make them the right 
length to connect into the system.
    For that reason, when we replace a water main--and we're 
going to be doing more water main replacements, not for lead. 
They're old, and they're breaking, and we need to improve the 
infrastructure in the city. When we do that, we will replace 
the lines because of this location question. When we replace 
the lines, some of those lines are lead, which yields a partial 
lead service line.
    Ms. Norton. I understand that, Mr. Hawkins. And if I 
understand you to say there's no way around it, there's no way 
around it. I'm very bothered by the fact that a remedy could 
have such an effect. And, of course, you have indicated there 
are a number of steps, and I commend you for the steps you have 
taken. I just wonder whether or not people pay attention, I 
suppose, is my great problem.
    When it comes to water, there are assumptions made. They 
turned out not to be true in 2000 to 2004, and you had the 
Nation's Capital really ridiculed for having a water crisis. We 
wouldn't like to see that happen again, largely because we 
wouldn't want families to be put in the position they were. 
There was something close to panic in this city at the time, 
and then they were put to rest. And now, of course, there's 
concern again.
    That makes me want to ask Mr. Jacobus about the new 
chemical that made us feel more comfortable, orthophosphate. 
And in light of Mr. Hawkins' testimony and the fact that 
orthophosphate is supposed to be an inhibitor, a corrosion 
inhibitor, I wonder how effective you think orthophosphate has 
been since 2004 on what Mr. Hawkins is doing with respect to 
partial replacement or, for that matter, on ordinary lines as 
they exist today.
    Mr. Jacobus. Sure. Let me just borrow his microphone as a 
water line. If this was the water main where my left hand is, 
the water that comes from the treatment plant has this 
chemical, orthophosphate. What orthophosphate does is, when it 
passes through the water line that goes into a house and into 
the house plumbing and comes to the tap, a chemical reaction 
occurs on the inside of that pipe, and it physically--the 
chemical and the orthophosphate compound physically integrates 
into the wall of the pipe.
    So if that pipe was lead, after the orthophosphate has 
taken hold in there and the chemical reaction has accomplished 
itself, and that will take a matter of months, and since we've 
been doing it since 2004, it's well established in there. From 
the water's point of view, the water going through the pipe, 
even though the pipe is lead, the water doesn't see lead. The 
water sees this protective film which is a phosphate coating, 
and that is the mechanism by which we can protect the public 
from having a lead pipe, by changing the chemical composition 
of the inside of pipe.
    And that has worked extremely well. It works as it goes 
through the copper pipes. If you had lead solder in the older 
homes where copper pipes are soldered together, it coats those 
junctions, and it even coats the inside of faucets which could 
have some amount of lead in the machining of those or in the 
metal fabrication. So that process working extremely well, as 
we knew it would. And so we're happy with that.
    But if you come for a partial service line replacement and 
you clip the line here, as Mr. Hawkins said, in the process of 
doing that you can shake off this film and you can get little 
pieces of lead coming through. So you have to take good 
precautions to the people using that for several weeks. But 
then that film will re-establish itself. So over time you have 
now a copper pipe or some other metal that's joined with the 
lead. The corrosion inhibitor will repair that, and it will be 
OK.
    That's why I said in my statement that we commit--because 
it's the right thing to do for the chemistry and for the public 
health--that we will continue to use a corrosion inhibitor 
indefinitely. So that as things happen in the distribution 
system, people jostle things around or things change or even if 
someone were to have some illegal solder and solder connections 
together, we can take care of that through the water chemistry. 
So that's, I think, a good news story on the technical side.
    Ms. Norton. And, Mr. Hawkins, you do say you inform people 
and you inform them a long time in advance. It just makes me 
very nervous to think that there is a 1-year-old child or a 
pregnant woman, who, during that time when orthophosphate is 
taking hold, may, in fact, be contaminated. It's very 
bothersome. Although I must say the only thing that saved the 
hearings we had before was that we learned about 
orthophosphate.
    I'd like to know if you're still using the chloramine to 
treat drinking water here in the District of Columbia. That was 
what was corroding, I understand.
    Mr. Jacobus. Right. The chloramine is a secondary 
disinfectant that lowers this class of chemicals called 
disinfection byproducts. Those are chronic potential 
carcinogens.
    Just to quickly review what we found out after the fact. We 
did not know this ahead of time or, obviously, we never would 
have done it. Chloramine was a very effective chemical used 
widely in the United States to lower the level of disinfection 
byproducts. Under the Lead and Copper Rule in 1991 when it was 
promulgated, by 1994, between Washington Aqueduct and EPA 
Region 3 had decided upon a technique which would give optimal 
corrosion control treatment, and that would be the use of lime 
to control the Ph of the water. What we did not know and what 
nobody knew except looking back a year or so after this was 
that the chlorine itself in the distribution system was acting 
as a corrosion inhibitor, and when we changed that to 
chloramine it started chemically eating away at the chlorine 
film that had been put there. And until we could establish a 
phosphate film, we had that period of time when we had 
unknowingly disrupted the corrosion control that had existed on 
behalf of chlorine. And, obviously, we never would have done 
that if we knew the chemistry; and out of all of this came a 
lot of thought and a lot of concern. The Lead and Copper Rule 
was changed nationally to be more protective. And I think that 
a very unfortunate situation. We did react quickly, but there 
was a period of time when people were exposed.
    Ms. Norton. So chloramines are or are not still----
    Mr. Jacobus. They are still used.
    And what is a little bit confusing about this, ma'am, is 
that in the late winter, early spring, annually, we will change 
the distribution system chemistry to be more effective at 
killing bacteria that may have grown in the distribution 
system, biofilm, if you will, and by letting it see chloramine 
followed by chlorine for a period of couple months, it will, 
sort of like spring cleaning. That again is a very common 
practice in the industry.
    But throughout all of that we are now using a corrosion 
inhibitor. Had we been using a corrosion inhibitor, an 
orthophosphate corrosion inhibitor in 2000, we wouldn't be 
sitting here today.
    Ms. Norton. Yeah. Are there other chemicals used to treat 
the city's water?
    Mr. Jacobus. Yes, ma'am. We add fluoride to the water for 
dental prophylaxis. We use, well, of course, lime to help 
change the Ph of the water to make it less reactive to the 
orthophosphate. To make the water coagulate, we use aluminum 
sulfate and, of course, the disinfectant, the chlorine. We use 
various versions of polyaluminum chloride. We use various 
polymers.
    These are all done to either enhance the coagulation and 
sedimentation or to improve filtration or to do good solid Ph 
control. Caustic soda is another agent that we use. All of 
these chemicals are certified by EPA for water treatment use.
    But back to the couple of comments in my testimony, we have 
set up these lead pipe loops. We have pipes that have been 
harvested from the District of Columbia distribution system. 
There are arrays of these in the basement of the water 
treatment plant on McArthur Boulevard. We run water through 
those, and we measure it as simulating the water in a house. 
And we can see the effectiveness of the day-to-day treatment, 
but we can also use various versions of those loops, various--
we have seven--actually, 21 pieces of pipe, but that's OK--
that, if we want to change chemistry, if we anticipate a 
change, we will run that water in the proposed chemistry 
through those pipes and analyze it for a period of time, look 
at those results with our own consultants, and then go to EPA 
with those results to then have a very high assurance that any 
change we make in the future will have been tested on pipes 
that water would be expected to see in the District of Columbia 
so that there would be no unexpected outcome of a future water 
treatment change.
    Ms. Norton. So, please make me understand. Who monitors the 
water supply in the District of Columbia?
    Mr. Jacobus. EPA Region 3 is responsible for enforcement of 
the Safe Drinking Water Act.
    Ms. Norton. Yeah, but who monitors the water on a monthly 
basis?
    I mean, for example, Mr. Hawkins, WASA was on the hot seat, 
frankly, for not, in fact, informing residents about lead in 
the water. And I am confused still about whose job it is to 
offer this information. I mean, is it Mr. Tulou's job? You 
know, whose job is it to tell the public the real deal here and 
how often?
    Mr. Jacobus. I misunderstood what you said about monitor. I 
mean, we send the results to EPA, and they look for compliance. 
Washington Aqueduct, as do all water utilities, we are 
responsible for our own process control.
    Ms. Norton. You sent it to the EPA in 2000 as well and 2001 
and 2002 and 2003 and 2004. I'm trying to find out who is 
responsible for monitoring the water in the District of 
Columbia and if there is an issue informing residents about 
that issue.
    Mr. Jacobus. We share that responsibility here.
    Mr. Hawkins. Yes, Congresswoman, my answer to that is that 
both the aqueduct and DC--now DC Water--would share that 
responsibility.
    As you know--and this is part of our proactive strategy--
twice since I've been on this job we've had to do a limited 
boil water alert. We did it as a precaution, but that's because 
the monitoring that we do, which is in addition to the 
monitoring the aqueduct does, we now take an--almost an 
extremely proactive look. If we see something that we believe 
could be a threat, we will release that information. We will 
take whatever protective steps are necessary. We will go to the 
public. We will walk door to door, which we did in both 
instances. So the aqueduct does actually more physical 
monitoring events than we do, but we do thousands as well. It 
is on our Web site so you can see it.
    Ms. Norton. So WASA would once again have the task of 
informing residents if, in fact there was some reason, 
something for them to know.
    Mr. Hawkins. Yes. We believe we have the responsibility, as 
the distributor of the water, to inform our customers. There 
may be occasions where the aqueduct does as well. But we take 
that responsibility very seriously on our part and will do it 
in every way we can to make sure the citizens know exactly 
what's happening as soon as we know.
    Mr. Jacobus. There are very strict rules in the Safe 
Drinking Water Act that require utilities to coordinate with 
EPA within hours of any treatment or other event that falls 
into a whole range of categories, and then a decision is made 
very quickly of what kind of notice should be made.
    Ms. Norton. Mr. Jacobus, I'm not concerned, frankly, that 
people didn't find out. I know one thing they didn't find--the 
public didn't find out for 4 years. I'm concerned about public 
information; and Mr. Hawkins has said, as was the case before, 
it is the job of WASA. WASA, which had a marvelous reputation, 
because the agency had to be rebuilt, until that time, really 
did much to spoil its reputation by taking actions that could 
only be called cover-up actions.
    Now, Mr. Tulou, the public needs to know why it is you, for 
example, are the lead agency on the lead prevention work and 
not, as is usually the case, the public health agency in a 
local jurisdiction. How did that happen? And what is your----
    Mr. Tulou. Well, the key response in terms of dealing with 
prevention that came out of this experience in 2003 was the 
realization that we had too many agencies of the District 
government involved in the process. So if there was a problem 
it took forever to actually get some response.
    The old way is the Department of Health would receive a 
report from a blood test screen. They would make a report to 
DDOE, which would followup to check to see whether or not there 
was a cause of concern within the home of the child that had 
the elevated blood level. And then, if that was the case, then 
DDOE would send a report over to DCRA, which is the consumer 
regulatory administration, to actually enforce.
    So what has happened in 2008 with the law that the Council 
passed and the Mayor signed is to consolidate all those 
responsibilities within DDOE. One of the primary reasons for 
that is that this is indeed an environmental threat.
    Ms. Norton. And a public health threat.
    Mr. Tulou. Well, it's a public health implication, but if 
you have peeling paint in a home or you have lead in the water, 
then, in essence--and you know there's no real reason it would 
have to be an environmental agency. It just needs to be an 
agency that is willing to step up, realize that there's a 
problem and take action. We have been designated that agency.
    I have to give Mr. Hawkins a great deal of credit for 
having made DDOE the kind of agency that can respond as well as 
it does to these sorts of things and to the folks sitting 
behind me who have made it their life's work to make sure that 
we discover where the problem is and we take action to deal 
with it.
    Ms. Norton. Dr. Arias, I have another question for you. In 
light of your testimony, at page 7, where you say that the rate 
of elevated blood levels was actually lower when the CDC 
included the new evidence, evidence that was not available to 
you before, did these findings account for the residents or the 
households who knowingly, knowing perhaps that they had lead 
service lines or high levels of lead in the water, had 
switched, therefore, to drinking bottled or filtered water?
    There were people who didn't know. Those were the people 
who were particularly panicked. There were others who had 
switched because a lot of people were switching during that 
period to drinking water that we're told often is the same 
water that comes to us out of the pipes.
    Were you able to account for those who had switched and 
therefore might be in the sample as well?
    Ms. Arias. The information that we added when we did the 
re-analysis was information back from the initial exposures. We 
did have information about who was drinking tap water, but we 
did not have information about who had switched to bottled 
water or was drinking bottled water.
    Ms. Norton. And there was no way to find that out? I mean, 
are those people perhaps in the sample?
    Ms. Arias. I would have to check with--we would have to 
check the raw data. I'd have to check with my colleagues back 
at CDC and look at that more closely.
    Ms. Norton. I would appreciate your doing that and 
providing information to the subcommittee within 30 days.
    Looking again at your testimony, page 8, you indicated that 
among the data that was missing in 2004 were results from 100 
children, you say, who had elevated blood levels in 2003. How 
many of these children were tested for poisoning in 2003, and 
how many of them had elevated blood levels?
    Ms. Arias. The 100 are the ones who, according to those 
tests, appear to have elevated blood levels that is above 10. 
When we then followed up with the Department in the District, 
it turns out that there were five children, I think it was--I 
don't remember if it was--I'm sorry. There were three children 
who actually had lower levels than that, were below 10. Ninety-
five of the children did have elevated blood levels between 16 
and 28 micrograms per deciliter. Those 95 children have 
received appropriate services and case management so that it 
was documented that they had received appropriate case 
management.
    There were two children who--one was a resident of the 
embassy, and we don't have information about them, although we 
assumed that they got the appropriate services through their 
contacts and their providers, and then there is one child who 
the Department has not been able to locate and find out what 
the followup was after the positive test.
    Ms. Norton. How many total tests of children were taken?
    Ms. Arias. I would have to get that information to you.
    Ms. Norton. Would you, within 30 days, to the chair of the 
subcommittee.
    Some have suggested that--indeed, this is why I asked the 
earlier question about who monitors, it sounds like it's self-
monitoring. Is there any reason to believe that there should be 
some independent oversight of water in the District of 
Columbia? Independent of the people who are in charge of 
delivering it? Dr. Arias. I mean, would that be a good practice 
to do in any case?
    Ms. Arias. All of our lead programs are required to create 
coalitions of all of the agencies and then interested parties 
in those districts who have a role and have an interest in the 
quality of water and in the whole issue of lead. So we are in 
favor of providing that sort of type of oversight. The 
coalitions essentially are responsible for reviewing the 
programs, the activities.
    Ms. Norton. Who's responsible? I'm sorry.
    Ms. Arias. The coalitions that are created by the lead 
programs. They're responsible for then essentially overseeing 
the programs, making recommendations about changes, working 
with us in doing that as well.
    Ms. Norton. Mr. Hawkins, how many partial lead replacements 
have taken place in the District of Columbia this year, for 
example?
    Mr. Hawkins. I will get you the exact number this year. In 
fiscal year 2009, the number was about 350.
    Ms. Norton. 350 in 2009.
    Mr. Hawkins. 2009. 2010, I can get you the number.
    By way of contrast, when the program was full steam, it was 
doing 2,500 partial lead lines a year; and those were done on 
purpose for the reason of replacing the lead lines, as opposed 
to as incident with a water main replacement.
    Ms. Norton. You keep saying that Mr. Hawkins, but, in light 
of what we know, it doesn't matter the reason. Because, 
whatever the reason, as you earlier testified, you're going to 
tell people what to do----
    Mr. Hawkins. Absolutely.
    Ms. Norton [continuing]. To mitigate the lead issue. So I 
understand that you at least weren't doing them in order to 
control the lead in the water. Could I ask if, after our 
hearings in 2004, WASA continued to do these partial 
replacements on the theory that it would control lead in the 
water?
    Mr. Hawkins. WASA continued doing partial lead 
replacements. I actually do have the letter from the CDC 
informing us of the study you mentioned. It was in September 
2009--it was September 2008 when the Board of Trustees, because 
there had been a board level resolution to do--to support this 
program which had initially been a requirement of the Lead and 
Copper Rule by U.S. EPA. So the initial response----
    Ms. Norton. You regard it as a requirement today?
    Mr. Hawkins. It is not a requirement today. Once the 
sampling that had been done showed that the numbers of lead in 
water had gone below the action level for a period of time, 
then EPA removed the requirement that we had to do partial lead 
service line requirements. When they removed the requirement, 
we had all this new information showing that it was not 
working, in fact was not achieving its desired goal.
    Ms. Norton. Well, what made EPA think it was working?
    Mr. Hawkins. Pardon me?
    Ms. Norton. If EPA was mandating partial replacement, on 
the basis of what scientific evidence were they proceeding?
    This is very troublesome. We had some problems on the 
national level with CDC. Now you tell me the EPA said do 
partial lead replacements, which is something that almost 
common sense would have told you if you knew anything, as, of 
course, as professionals do, might lead to leaching or leaking 
of lead. Can anyone tell me what the source of that 
recommendation was in the first place, to do partial lead 
replacement--I mean partial pipe replacement.
    Mr. Jacobus. Well, I can speak not to the theory behind it, 
but, in fact, in the Lead and Copper Rule, if a system exceeds 
the 90th percentile of 15 parts per billion, which is the 
action level threshold on the Lead and Copper Rule, in addition 
to public notification it must begin a partial system 
replacement of 7 percent, I think, of the lines per year until 
the system achieves compliance of the hundred samples taken in 
a 6-month period, the 15 parts per billion. So it was a formula 
worked out in the Lead and Copper Rule to cause a system to 
begin to replace service lines, if only partially and, at the 
same time, to re-establish corrosion control.
    Now, the scientific theory behind that I cannot speak to.
    Ms. Norton. Ms. Silbergeld.
    Ms. Silbergeld. Yes, I was on the SAB committee, and I'm 
afraid it was a political science consideration more than an 
engineering science. It had to do--and I think you spoke to 
this as well. Part of this problem is because the sources of 
lead can be within private property and within public property. 
And at the time of the evaluation of recommendations to EPA for 
the Safe Drinking Water Act in the Lead and Copper Rule there 
was a reluctance to try to engage the political issues that 
would arise if recommendations were made that the private 
sector of the lead line might have to be replaced as well.
    Ms. Norton. If I could just finish this question, but did 
they know at the time that if you did only replacement of one 
part of the line that would perhaps be harmful and therefore 
why recommend any replacement?
    Ms. Silbergeld. I don't think that it was clearly known 
that partial replacement would potentially actually increase 
levels. There was some sense that any reduction of lead in the 
system would tend to reduce levels of lead overall. So that was 
not an issue of scientific knowledge or assumption. But the 
main driver, I would have to tell you, based on my 
recollection, was political rather than scientific.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Lynch [presiding]. I thank the gentlelady. I appreciate 
you taking over the responsibilities of the chair during votes. 
It helped us, I think, utilize our time well.
    I had a number of questions here, but I think in my absence 
we were able to ask a few of them, so I don't want to--is this 
OK? All right.
    Based on testimony that was given earlier today, as I 
understand it, the CDC has taken issue with the fact that the 
District only tests approximately 38 percent of children so 
far. And this sort of relates to my earlier question about is 
it smart, given the history here, to only test children up to 
age six? Obviously, given the history, we'd like to see 100 
percent of the kids tested, children tested. How do we get 
there and how close are we to getting where we need to be?
    Ms. Arias. As I mentioned earlier, we know that only about 
45 percent of the kids even between the ages of one and two, 
who are at the highest risk, are being tested. One of the 
things that we're doing is working very closely with the 
District to make sure that enforcement of that law for 
universal screening in that age group, No. 1, is being 
conducted. The reason for starting with the high-risk kids is 
the obvious reason. We want to make sure that they are 
optimally protected.
    However, in addition to them making sure that kids who are 
at the highest risk are tested, we want to make sure that 
others as well. So even going up to the age of three, 
especially a child who's 3 years old and has never been tested, 
making sure that child is tested, catching them again before 
they enroll either in daycare or at school and making sure that 
they get tested at that time.
    Mr. Lynch. Ms. Arias, what puts a child into a high-risk 
category?
    Ms. Arias. The age, No. 1. And given that they are most 
likely to suffer significant health effects as a result of even 
low exposures or any exposure associated with lead, again, 
because their brains are still developing so rapidly during 
that time.
    Mr. Lynch. I understand. I guess it's the risk of exposure 
is what I'm getting at. Prior to being a Member of Congress, I 
actually did a lot of volunteer legal work for--in public 
housing. Basically, I grew up in the housing projects and ended 
up representing a lot of the families that I used to live with, 
you know, and they had lead paint. They had asbestos on the 
pipes. Some of the housing was substandard, to say the least. 
And are we targeting any populations like people, families that 
are in public housing, older public housing developments that 
might be at greater risk?
    Ms. Arias. We are targeting them through various--in 
various ways. One of the things that we are working very hard 
to do is making sure that those homes get assessed very 
carefully, looking at all sources of lead. So looking at water, 
looking at air quality, looking at other kinds of things that 
also may increase exposure to lead in those homes.
    Mr. Lynch. OK. But, right now, we're only getting 38 
percent. So do we have a plan in place? Is that a goal? Are we 
testing 38 because we're looking for a sampling?
    Ms. Arias. No, the only reason 38 are being tested is 
because we have to step up and make sure that individuals who 
should be doing the testing are going to do it, children who 
should be tested are going to be tested. So it's a matter of 
providing both the education and the oversight to make sure 
that the laws that are in place, the regulations that are in 
place are being enforced and are being carried out.
    Mr. Lynch. OK. Let me ask, Dr. Silbergeld, you raised some 
concerns around this same area. What's your read on this in 
terms of our inability to really get a more complete assessment 
of the risk to these children?
    Ms. Silbergeld. That is a very complicated question. I'm 
glad you're pursuing it.
    As pointed out, CDC has consistently made the 
recommendation for universal screening; and I also would note 
that I think your questions about extending the point of 
screening beyond six is something that should be taken under 
advisement by CDC as well.
    The problems really arise that this is actually implemented 
on a State level. The funding through national health programs 
is limited and, therefore, its decisions that are made on the 
basis of health priorities by various States. At present, 
relatively few States, I believe, Dr. Arias, have actually 
legislated universal screening. My State is one of them. We're 
not achieving that yet either. And a lot of it does involve 
speaking with the health care community, private and public, in 
terms of insuring that this message goes out. But this is an 
issue, I think, of the very highest priority, and anything that 
can be done to stimulate more attention to this, I think, would 
be very welcome by everyone in public health.
    Ms. Norton. Mr. Chairman----
    Mr. Lynch. I'm just about done, so I would yield to the 
gentlelady.
    Ms. Norton. I just have a question just to followup your 
question.
    While you were gone I don't think I had heard that 38 
percent number. The chairman's question about 38 percent made 
me wonder why in the world the District has such a low number, 
especially in light of the fact that it was here that you had a 
national lead-in-the-water crisis where you would have expected 
us to have a larger number tested for paint and for water and 
wherever lead comes from.
    Ms. Silbergeld. Well, actually, I must say, taking a 
national view--and one of my students has just reviewed this. 
I'm sorry to say this as an American, but that's at the upper 
end of prevalence of testing in the United States. There are 
some States where we're down around 10 or 15 percent.
    Ms. Norton. Well, this is what I want to know. We're 
supposed to have universal testing here, and we can only get to 
38 percent.
    Ms. Silbergeld. Well, we're supposed to have universal 
vaccination, and we don't get that either. So we have, you 
know, these are the problems of delivering health.
    Ms. Norton. Mr. Tulou, we had the crisis, and we got 38 
percent. I think it sounds awful--I don't care compared to 
whatever--and I'd like to know why we don't have a higher 
figure than that.
    Mr. Tulou. And I think the point's very well taken.
    We in the District, by the way, do have a law that requires 
testing twice of young children before they're the age two.
    One of the things I mentioned in the testimony that we're 
doing is working with Medicaid officials on some data sharing, 
which will help us to make sure that Medicaid children are at 
least getting their testing on time which in other 
jurisdictions has led to very significant increases in that 
screening rate.
    But it's like a lot of other mandates. If there is a 
reluctance on the part of the health providers to do this, for 
whatever reason, you would think the health officials would be 
the first ones to want to test their patients for these things. 
It creates somewhat of a problem, and it's obviously something 
we're aware of, and we'd like to improve those numbers as well.
    Ms. Silbergeld. Just one other point. I believe that the 
city of Providence instituted a program whereby children had to 
present evidence of having been tested for lead prior to school 
entry, including preschool. And that has had a dramatic effect 
on increasing the rates of testing. So there are other actions 
that can be taken by jurisdictions. Again, not something that 
CDC mandates but ways of linking this in a very real way to the 
risk of school failure.
    Mr. Lynch. That may be the answer right there. Thank you. 
That's very helpful.
    Madam Chairman, I'll yield 5 minutes to you, if you like.
    Ms. Norton. Mr. Chairman, I've gotten to ask all of my 
questions and even some of yours. Thank you very much.
    Mr. Lynch. And again, Mr. Tulou, the lack of compliance, if 
we're looking for universal testing, where is the logjam here? 
If we're at 38 percent, is it because we're not making families 
aware or we're not making providers aware? Where are we falling 
down on this?
    Mr. Tulou. I think it's--we have a fairly considerable 
amount of effort going on to make the health care providers 
aware. What we have found in our experience is that they 
sometimes, for whatever reason, don't particularly want to 
listen to us in this regard.
    I think there is general authority under the law for the 
District to enforce against those who are not providing the 
screening. I don't think that has been rolled out and has not 
been used. Certainly we're open to other ideas to find ways to 
encourage these tests to happen.
    If it relates to entry into school, I think part of the 
downside of that is that kids are already well beyond their 
second year of age by the time that they're looking for entry 
onto school or preschool programs. But certainly that would be 
a way down the line to find out whether or not that testing had 
occurred.
    Mr. Lynch. You would think, though, that newborns, you 
know, just checkups in those very early months and years, that, 
given the circumstances here, we had a crisis from 2000 to 
2004, so this isn't just a general population. This is a 
population that we've already identified as having some 
considerable risk, and the exposure possibilities are there. So 
now we're responding to that by trying to institute this 
testing.
    You would think there would be a greater urgency among 
providers to make sure, whether it's a health center, community 
health centers, you know, see a lot of these children, whether 
or not they're aware of this and are taking the opportunities 
to test these kids when they do come in. You know, I'm just not 
sure where the gap is.
    Mr. Tulou. Well, Mr. Chairman, I'm dumbfounded, given the 
experience that D.C. had back in that period of time, that this 
isn't much higher on providers' list of concerns.
    I have to say, for kids who tend to be at highest risk, 
there are a lot of other health issues that providers are 
dealing with them and their families on. But I can assure you 
that we're going to go back, and we're going to take a look at 
those numbers, and we're going to find a way to bring those 
numbers up.
    Mr. Lynch. Yeah. You know, I do agree with the doctor that 
making it a condition of enrollment in school is one way. But, 
as you pointed out, considerable time goes by that there may be 
damage being done.
    Mr. Tulou. Let me say just another thing that I mentioned 
in my statement is we are being very proactive. We are 
identifying, through a combination of GIS and places where 
we've noticed high blood levels in the past, to find hot spots 
in the District; and we are going to those properties and 
making sure that those owners and managers of those properties 
are inspecting their units for hazards.
    Also, now, we are, when we respond to an elevated blood 
level and we're inspecting a home, we're also checking the 
water.
    So, in other words, the bottom line here is there are a lot 
of different ways that a child's blood level could be high for 
lead. We don't want any of those opportunities and any of those 
ways of introducing lead into their systems to go unchecked.
    Historically, of course, peeling and flaking paint was an 
obvious one. The law now says that if that is happening in a 
pre-1978 home, it is assumed that is a hazard and so it's up to 
that property owner and that manager of that property to prove 
to us that it's not. So we enforce against them and we make 
sure that those cleanups are done.
    But by adding the water monitoring to the other 
environmental checks that we do within those homes it's going 
to give us a helpful check to what the aqueduct and what George 
is doing at WASA on whether and to what extent water is a part 
of that situation.
    Ms. Norton. And, Mr. Chairman, could I----
    Mr. Lynch. Please.
    Ms. Norton. Just following up on your 38 percent question, 
when my children were born and you have to take children to the 
hospital--I mean, to the doctor all the time in those years, 
it's mandated and people do it. I didn't remember knowing to 
ask the doctor what things John and Catherine Norton should 
have to immunize them. That wasn't from me. It was from him.
    He would say, Ms. Norton, you are due in 2 months for this 
child to have X, Y and Z vaccination.
    Why does the District of Columbia Act solve this problem by 
saying to health professionals, this is on your list to tell a 
family it is required. Now, we know you can refuse certain 
kinds of vaccinations, and we get in a lot of trouble for that. 
But why isn't that simply added to the list of shots--shall I 
call them--like the polio shot, all the rest of them, 
diphtheria, all of that, and lead in the water, particularly 
because the District of Columbia has had an issue on that?
    Mr. Tulou. And it is on the list, and that is why I am 
mystified. I don't know why the physicians aren't requiring 
those tests to be done for those children.
    Ms. Norton. I guess you don't know then whether the other 
tests are being done either, because if it is on the list, you 
now scare me.
    Mr. Tulou. I think that is right. And if I were a parent of 
a child going to a doctor, I would want to know what is on the 
list, and then I would ask the provider.
    Mr. Lynch. Reclaiming my time, now may I ask Mr. Hawkins 
and Mr. Jacobus if you could just amplify around this point 
that we are talking about? Was there any effort to do a public 
communications campaign, radio, TV, on the Metro or anything, 
to say you need to be testing your child; given the history we 
have had here, you need to be making sure that your child 
within these ages needs to be tested for lead levels?
    Mr. Hawkins. We have done very extensive outreach about 
lead in water and what is the risk factors. One of the areas 
that we share with the department of environment is trying to 
be proactive in profiling where the problem is most likely to 
exist so we can focus our resources most intently; identifying 
either neighborhoods, streets, types of buildings, age of 
buildings, where should we focus our time. But to all of our 
customers, in all of what we distribute, we have information 
about the risk of lead in water.
    I don't think, although I will check, that we have included 
recommendations on getting tested lead in blood for children, 
and that is something that is a good idea that we could add, 
because we do regularly communicate, unlike many other 
agencies--because we send a bill, we communicate with our 
customers every month; that we can add that, and that is a good 
idea.
    Mr. Lynch. That would be helpful. If you could make sure 
you communicate with the committee and Ms. Holmes Norton on 
what we are going to do on that. I would like to redouble our 
efforts and see if we get that number up from 38. I know 
ironically, Doctor, you are probably right; it is higher than 
elsewhere, but not nearly where we need to be.
    Mr. Jacobus, anything you could add on this?
    Mr. Jacobus. I would add, sir, that our role is to make 
sure that the treatment of the water is meeting the standards 
that we have set for ourselves. We meet with our customers, the 
District of Columbia Water and Sewer Authority, Arlington 
County and Falls Church, regularly in various forums. We have a 
monthly water quality meeting, and we review the treatment 
chemistry, we review the data back and forth so we are aware 
that the quality of water getting to them is meeting a specific 
standard.
    We do not speak directly to the retail customers, but we 
are very active in making sure that amongst the wholesale 
customers, everybody knows where the water is. If anybody has 
any concerns, we discuss those to make adjustments to make sure 
they are getting exactly what they want and stuff that exactly 
meets the drinking water standards. So we are very much open, 
proactive, and communicating all the time with our customers.
    Mr. Lynch. Thank you.
    Doctor, I know you wanted to add something.
    Ms. Silbergeld. I think it would be useful for someone to 
survey insurance companies to find out how many of them 
actually reimburse for lead testing.
    Mr. Lynch. That is a great point.
    All right. Well, I think you have suffered enough. I want 
to thank you for your willingness to appear before the 
committee and help us with our work. As normal, we have several 
hearings going on at the same time, so I am going to leave the 
record open for 5 legislative days so that Members, if they 
would like, can submit questions to you all.
    Thank you very much for your help in addressing this 
problem. We will continue to be in touch with each of you. I 
want to thank you for your testimony here today, and I wish you 
good day. Thank you.
    This hearing is now adjourned.
    [Whereupon, at 4:09 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Gerald E. Connolly and 
additional information submitted for the hearing record 
follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
